WAIVER

Supreme Court of the United States

No. 19-1311
Douglas Lynn Kirk v. Texas
(Petitioner) (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
yi Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

«Ke Iam a member of the Bar of the Supreme Court of the United States.

Oo Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature __§_ 7“
Date: i L (> ! zo
(Type or print) Name. Awoeia mw Auras

OMr. OMs. (Mrs. O Miss
rim “AWerawt Cont? Ceuanar Drsiucr Armncy's
Address YO\ W, Berens KP OF ruc
City & state Ther \W ser > Tex AS Zip TWwi4 le
Phone BX) YR - Wo RA

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

 

 

 

 

Ce Me. Garey Ovasuen

Doasuen/ Ayr
O2d1\ Ceoag Seawes Rn Ste 250

“Derares, 15.
Obtain status of case’on \es docket. 2 Qhe at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
